Semi-Annual Reports to Congress
Skip Navigation.
NARA
Blogs
Bookmark/Share
Contact Us
Search
Office of the Inspector General (OIG)
Home >
OIG >
Reports to Congress >Semi-Annual Reports to Congress
OIG Reports
Reports and Managagement Letters
FY 2014
FY 2013
FY 2012
FY 2011
FY 2010
FY 2009
FY 2008
FY 2007
FY 2006
Semi-annual Reports to Congress
Annual Audit Plan
FAIR Act Report
Peer Review Reports
OIG Hotline
OIG Semi-Annual Report to Congress
April 1, 2007 to September 30, 2007
Table of Contents
Foreword
Executive Summary
Introduction
Activities
Audits
Investigations
Top Ten Management Challenges
Reporting Requirements
Visit http://www.archives.gov/oig/ to learn more about the National Archives Office of Inspector General.
Top of Page
Foreword
The National Archives and Records Administration's (NARA) core mission is to serve democracy by safeguarding and preserving the records of the Federal Government.  The Office of Inspector General plays a critical role in supporting NARA in this regard.  Our audits and investigations are geared to help NAEA staff accomplish their work in the most effective and efficient manner possible while identifying and investigating instances of waste, fraud, abuse, and mismanagement.
As in previous reporting periods, we have defined the Electronic Records Archives (ERA) program as the to management challenge facing NARA  The importance of ERA cannot be minimized in an era in which paper records are giving way to electronic records being born digitally. Thus the need to capture, protect, and make readily available records of our democracy before they are lost is crucial. To place risk in context, if someone attempted to play a 1960's-era 8-track tape player can be located.  this analogy illustrates the challenge of preserving and accessing electronic records in an age of rapid technological evolution. This forward, for example, is being saved in Word 2002; will it be retrievable in the year 2100? This is a microcosm of the challenge ERA is tasked to fulfill.
The shortages in staffing of the NARA OIG have been well documented to Congress, the Office of Management and Budget, and the American public. With the support of the Archivist, we were able to hire an additional staff member during this reporting period whom we will dedicate to providing essential ERA audit coverage. This is a positive development and certainly welcome. However, the operational needs of this office for additional investigators and program auditors remain unfunded and thus unfulfilled. It is my hope that this situation will be addressed to enable us conduct the essential work that our stakeholders expect of us.
Top of Page
Executive Summary
This is the 38th Semiannual Report to the  Congress summarizing the activities and accomplishments of the National  Archives and Records Administration (NARA) Office of Inspector General  (OIG). A summary of NARA's top challenges is provided under the  section titled “Top Ten Management Challenges.”  The highlights of our major functions are summarized below.
Audits
In this reporting period, the Audit Division  continued to examine the security of NARA's Information  Technology (IT) systems and assess the economy and efficiency of NARA's programs. This work has had positive impact upon agency  operations and related controls in these critical areas. Recommendations  directed to NARA officials will, upon adoption,  translate into reduced risk for the agency and increased levels of security and  control over NARA's  financial assets, programs, and operations.
We issued the following audit reports during the  reporting period:
Review of Selected Security Aspects of NARA's Computer Network  Environment. This report addresses several security-related  issues we identified  during review of the NARA Novell Software Upgrade Project that adversely impact  the security of the NARA  computer network (known as NARANet) and the information contained within that  network. To accomplish our objectives, we  determined if (a) unidentified devices were connected to NARA's computer  network, (b) network printers were properly configured, (c) Novell servers  generated audit records, and (d) new users at the Presidential libraries undergo  background investigations and receive security awareness training before access  to NARA's computer network is granted. Our  review found several significant weaknesses that adversely impact NARA's IT security  program. We believe that the findings  discussed in this report further strengthen our position that information  security be continually reported by the agency as a material weakness. We made four recommendations that, when fully  implemented by management, will assist that agency in correcting the reported  deficiencies and in improving computer network security. Management concurred  with all the recommendations (Audit Report #07-10, dated July 2, 2007.).
Audit of NARA's  Energy Usage. Our audit  assessing NARA's energy management practices  found that NARA's Energy Management team has a  positive and passionate attitude toward their responsibilities for energy  management and has initiated and completed numerous efforts to reduce NARA's energy and water  consumption, thereby mitigating the rising cost of energy. However, our audit revealed that additional  opportunities exist to realize additional energy efficiencies by updating  NARA's last reported comprehensive 1996 Energy Plan and making the plan  available to Energy Management team members, revitalizing the Employee Energy  Awareness Campaign, establishing procedures that ensure adequate documentation  of energy projects, and evaluating the potential benefit of a full-time Energy  Manager position. We made four  recommendations designed to help NARA
further reduce  energy consumption and realize associated cost benefits. Management agreed with our recommendations  and initiated corrective action. (Audit Report #07-08, dated June 8, 2007.)
Top of Page
Management  Letters
Independent and Objective Oversight of the  Electronic Records Archives Program Needed. During the period, we brought to the Archivist's attention the need to  provide the OIG with immediate additional resources to enable oversight of the  ERA program that would promote the program's success. The Chief Information Officer (CIO) expressed  concern regarding the success of this mission-critical program in a recent  briefing. The CIO noted that the program  was beset with operational delays, funding setbacks, and material staffing  issues. Since the inception of the ERA  program, the OIG has lacked resources to perform oversight of the program. As far back as 2001 the OIG predicted that  the program would experience problems without effective and independent oversight. The Archivist concurred with our management  letter and took action to allow the OIG to pre-hire one of two ERA resources  designated for the OIG in FY 2008.  (Management Letter #07-11, dated July 13, 2007.)
Contingency Planning for Information  Technology Systems. The OIG brought to the Archivist's  attention that adequate contingency plans do not exist in the event of a  service disruption or disaster.  Furthermore, coordination among NARA  Senior Managers has not been established to ensure IT systems, critical to NARA's mission, can be  recovered quickly and effectively following such an event. Specifically, NARA Senior Management  identified several systems in the NARA Continuity of Operations Plan (COOP) as  essential to their operations in the event of a regional or national  emergency. According to the CIO, she  lacks the organizational posture and baseline resources necessary to ensure  that “critical” or “essential” systems will be available in the event of a regional  or national emergency. We urged prompt resolution of this issue in order for NARA to develop, document,  and implement plans that minimize the agency's risk and afford it the  opportunity to recover critical IT services following an emergency. The Archivist concurred with our management  letter and took immediate action. He  noted that he would ask the CIO to prepare a methodology to ensure that the  assumptions related to business recovery contained in existing system  contingency plans are valid. He noted  further that as part of the development of the COOP, the functional  requirements and related systems specific to NARA's essential functions are being  documented, and will be reviewed by the Senior Staff. Finally, the Archivist noted that when these  activities are completed, he would ask both the NARA Continuity Coordinator and  the CIO to prepare a report for Senior Staff that clearly delineates the  processes that make up contingency planning and the associated responsibilities  of the Senior Staff. (Management  Letter #07-12, dated September   20, 2007.)
Top of Page
Investigations
During this reporting period, the  Office of Investigations (OI) opened 10 investigations, closed 19 investigations,  executed 2 arrest warrants, seized 2 vehicles, and recovered 3 records. The OI also received 81 complaints and closed  45 complaints. Additionally, the OI  conducted joint investigations with the Department of Transportation OIG and  the FBI. At the close of the period,  there remained 25 open complaints and 34 open investigations.
The Office of Investigation  completed investigations in areas including
Theft of Civil War records
Violations of NARA       Security Policy
Threats to Employees
Improper Access to Classified Material
Destruction of Government Property
Grant Fraud
Our investigative staffing level  is inadequate to fully discharge our duties. Presently, just three special agents share the  investigative burden that comes with a 3,000-person, 36-facility, nationwide  agency that includes the Presidential Library system. This broad-based area of operations, combined  with our limited staffing, hampers our efforts in meeting our statutory mission  of preventing and detecting fraud and abuse in the programs and operations of  the National Archives and Records Administration. At present staffing levels, we are unable to  perform any proactive investigative activity.  Our most complex and high-profile cases demand the attention of our  entire staff, which constrains our agents from vigorously pursuing more routine  investigations. But for the impressive  abilities of our assembled team, the successes we have achieved in the present  environment would not have been possible.
Management  Assistance
During the reporting period, the OIG
Referred  17 cases from the Archival Recovery Team to the Office of General Counsel  pursuant to NARA Directive 1462.
Assisted  the Office of General Counsel with an EEOC issue related to the OIG's audit of NARA's Enterprise  Architecture.
Participated in a joint conference on holdings security  with the Library and Archives of Canada.  Presented a case study on holdings theft and discussed the creation of  the Archival Recovery Team.
Provided assistance to Human Resources for an  unemployment benefits issue impacted by the Privacy Act.
Provided assistance to NARA's EEO office on No FEAR and  Whistleblower Protection training.
Provided information for a NARA Staff Bulletin  article regarding Personally Identifiable Information (PII) and working at  home.
Worked with the National Personnel Records  Center (NPRC) to establish a new telephone contact for customers with questions  regarding their military service records.  This allowed the OIG to avoid the unnecessary and inefficient step of  opening hotline complaints when NARA  customers simply had basic questions for NPRC.
Advised the  Information Security Oversight Office (ISOO) on NARA policy set forth in NARA Directive 802:  Appropriate Use of NARA Office Equipment.
Provided  comment to NARA Notice 2007-217: Clearance of Proposed Revisions to Testimony  by NARA Employees Relating to Agency Information and Production of Records in  Legal Proceedings. The OIG commented  that the production of OIG records or testimony of OIG staff needed to be a  decision of the IG rather than determined by the agency.
Top of Page
Introduction
About the National Archives and Records Administration
Mission
The National Archives and Records Administration  serves American democracy by safeguarding and preserving the records of our  Government, ensuring that the people can discover, use, and learn from this  documentary heritage. Further, the  agency ensures continuing access to the essential documentation of the rights  of American citizens and the actions of their government and supports  democracy, promotes civic education, and facilitates historical understanding  of our national experience.
Background
NARA, by preserving the nation's documentary history,  serves as a public trust on which our democracy depends. It enables citizens to inspect for themselves  the record of what the Government has done.  It enables officials and agencies to review their actions and helps  citizens hold them accountable. It ensures continuing access to essential  evidence that documents the rights of American citizens, the actions of Federal  officials, and the national experience.
Federal records reflect and document America's  development over more than 200 years and are great in number, diverse in  character, and rich in information. NARA's traditional holdings amount to more than 3 million  cubic feet and NARA's  Federal Record Centers hold more than 25 million cubic feet of records. These holdings include  architectural/engineering drawings, maps, and charts; moving images and sound  recordings; and photographic images.  Additionally, NARA  maintains 543,564 artifact items and 10.5 billion logical data records.
NARA involves millions of people in its  public programs, which include exhibitions, tours, educational programs, film  series, and genealogical workshops. In FY 2006, NARA hosted 3 million museum visitors while  responding to 1.2 million written requests from the public. In addition, NARA responded to 10 million Federal agency  reference requests, 21,367 Federal agency requests for appointments to review  records, and provided records management training to 4,234 individuals. NARA  publishes the Federal Register and other legal and reference documents that  form a vital link between the Federal Government and those affected by its  regulations and actions. Through the National Historical Publications and  Records Commission, NARA  helps to preserve and publish non-Federal historical documents, which also  constitute an important part of our national heritage. NARA also administers 12 Presidential  libraries that preserve the papers and other historical materials of all past Presidents  since Herbert Hoover.
Resources
In FY 2007, NARA was appropriated an annual  budget of $331 million and 2,808 Full-time Equivalents (FTEs), which included  appropriations of $281 million for operations, $45 million for the Electronic  Records Archives (ERA) program, $9.1 million for repairs and restorations of  facilities, and $5.4 million for grants. NARA  operates 36 facilities nationwide.
About the Office of Inspector General (OIG)
The OIG Mission
The OIG's mission is to  ensure that NARA  provides the American people with continuing  access to the essential documentation of the rights of American citizens and  the actions of their Government by  providing high-quality, objective audits and investigations, and serving as an  independent, internal advocate for economy, efficiency, and effectiveness.
Background
The Inspector General Act of 1978, as amended,  established the OIG's independent role and general responsibilities. The  Inspector General reports to both the Archivist of the United States and the Congress. The  OIG evaluates NARA's  performance, makes recommendations for improvements, and follows up to ensure  economical, efficient, and effective operations and compliance with laws,  policies, and regulations. In  particular, the OIG
assesses the  effectiveness, efficiency, and economy of NARA  programs and operations
recommends  improvements in policies and procedures to enhance operations and correct  deficiencies
recommends  cost savings through greater efficiency and economy of operations, alternative  use of resources, and collection actions, and
investigates  and recommends legal and management actions to correct fraud, waste, abuse, or  mismanagement.
Resources
The FY 2007 OIG budget is approximately  $2,060,300 for operations. The OIG now  has 17 FTEs. At full staffing, in  addition to the Inspector General and 3 support staff, 7 FTEs are devoted to  audits, 5 to investigations, and 1 serves as counsel to the Inspector General. During the period the OIG was given a FTE for  a new Investigative Archivist position.  Additionally, the OIG filled 3 audit positions: one program audit and  two IT auditor positions. Also, the OIG  filled the AIGI and the Attorney-Advisor positions. The OIG is seeking additional audit and  investigative resources to support the work of this office as defined in the FY  2008 and FY 2009 budget submissions to the Archivist.
Top of Page
Activities
Involvement  in the Inspector General Community
President's Counsel on Integrity and  Efficiency (PCIE) and Executive Counsel on Integrity and Efficiency (ECIE) Investigations  Committee
The Inspector General (IG) served  as one of two ECIE representatives to the Investigations Committee. The  mission of the Investigations Committee is to advise the IG community on issues  involving investigative functions, establishing investigative guidelines, developing  training as facilitated through the IG Academy, and promoting best practices. The committee gathered at the Federal Law  Enforcement Training Center (FLETC) in Glynco,   Georgia, in  order to define the functionality of FLETC and how its resources could be best  used to benefit the OIG community in a cost-effective and efficient manner.
PCIE/ECIE Award for Excellence
Special  Agents Matt Elliott and Rachel Wilson, Computer Forensic Analyst Tom Bennett,  and Special Agent Kelly Maltagliati received a PCIE/ECIE Award for Excellence  for their efforts in the recovery of 161 Civil War records stolen from NARA's Philadelphia  regional archives.
Council of Counsels to Inspectors General (CCIG)
The OIG counsel participated in meetings of the CCIG and communicated  regularly with fellow members. Multiple  topics were raised, discussed, and addressed including repeated agency  challenges to OIG independence and authority under the IG Act; staffing and  management of OIG Hotlines; evidence storage; warnings and confidentiality;  security clearances; Memorandums of Agreement with local law enforcement and  the OIG's law enforcement authority; and jurisdiction over various facilities  owned and/or occupied by the National Archives.
Federal Audit Executive Council (FAEC)
The Assistant Inspector General  for Audits (AIGA) continued to serve as an ECIE representative to the  FAEC. During the period, the AIGA  attended the FAEC's meeting to discuss topics such as financial statement audit  issues, opinion reports on internal controls, and information security.
Response to  Congressional Items
Federal Information Security Management  Act (FISMA) of 2007
Together with the NARA Chief  Information Officer (CIO) and the Senior Agency Official for Privacy (SAOP),  the OIG provided the Office of Management and Budget the 2007 Annual Security  Review report pursuant to the Federal Information Security Management Act of  2002 (FISMA). FISMA requires Federal  agencies to take a risk-based, cost-effective approach to secure agency-wide  information and systems, identify and resolve IT security-control weaknesses,  and protect agency resources against future vulnerabilities and threats. FISMA lays out a framework that is further  specified by National Institute of Standards and Technology publications for  risk-based controls, testing, and evaluation.  Under this guidance, the Federal Government is able to quantitatively  determine IT security-control progress and problems. This information is essential to ensuring  that remediation efforts and IT resources are prioritized, properly included in  the budget, and result in timely resolution of IT security weaknesses.
Many of the control weaknesses  noted in previous years continue to persist.  We conducted an audit instead of an evaluation for this year's FISMA  review in order to issue formal recommendations to management to address  repeatedly identified FISMA weaknesses.  Specific issues identified this year include 1) lack of a formal Plan of  Action & Milestones (POA&M) process; 2) noncompliance of the  Certification and Accreditation process with NARA policy or NIST SP 800-37; 3) operation  of at least two classified systems without accreditation; 4) non-use of procedures  for incident handling and response; and 5)ineffectiveness of contingency  plan tests, which did not actually test the feasibility of the plan. An audit report that further details the  weaknesses identified is forthcoming.
Top of Page
Inventory of Commercial Activities
We submitted to OMB, via NARA, our FY 2007  inventory of commercial activities performed by OIG employees. The Federal Activities Inventory Reform Act  of 1998, Pub. L. 105-270 (the FAIR Act), requires Federal agencies to prepare  and submit to OMB, by June 30 of each year, inventories of their commercial  activities performed by Federal employees.  OMB is required to review each agency's inventory and consult with the  agency regarding its content. Upon  completion of the review and consultation, OMB is required to list the  available inventories in the Federal Register, and the agency head must  transmit a copy of the inventory to the Congress and make it available to the  public. NARA  forwarded its FY 2007 inventory to OMB and published it to the NARA web site during this  reporting period.
Presidential  Artifacts Audit
Senator Charles E.  Grassley, as Ranking Member of the Committee on Finance, with oversight  responsibility of the National Archives, requested a detailed audit of the  operations of NARA's  Presidential libraries to include the security of Presidential artifacts. Presidential artifacts include collections of  priceless and irreplaceable items, some of significant historical value. Subsequently, the OIG developed an aggressive  audit plan involving auditors and investigators who began and completed field  work during this reporting period. OIG  staff visited six Presidential libraries and will submit its final report—Process  of Accounting for and Safeguarding Library Artifacts—during the next reporting  period.
Third Party Privacy and Data Protection Review
Pursuant to Title 42 U.S.C. § 2000ee-2(d),  NARA is required to have an independent, third-party review of its privacy and  data protection procedures to determine the  accuracy of the description of the use of information in identifiable form; determine  the effectiveness of privacy and data protection procedures; ensure  compliance with stated privacy and data protection policies of the agency; and ensure  that all technologies used to collect, use, store, and disclose information in  identifiable form allow for continuous auditing of compliance with stated  privacy policies and practices governing the collection, use and distribution  of information in the operation of the program.  The statute requires the Inspector General to contract with an  independent, third party that is a recognized leader in privacy consulting,  privacy technology, data collection and data use management, and global privacy  issues to perform the review. Whereas  OMB did not fund this initiative, the OIG requested funding from NARA to support this  statutorily mandated contract. NARA did not allocate any  funds for this contract during the reporting period and is not in compliance  with this mandate.
Top of Page
Audits
Audits Overview
This period, we issued
2 final  audit reports and
2 management  letters
We completed fieldwork on the following  assignments:
an audit of  the process of accounting for and safeguarding Presidential library artifacts  to determine whether sufficient management controls exist to safeguard and  account for library artifacts
an audit of NARA's Purchase Card program to determine the  adequacy of management controls over the program
an audit of NARA's Researcher Card Program to determine  whether management controls are adequate to ensure that researcher information  is accurate, verifiable, and properly safeguarded.
We also  continued work on the following assignments:
an audit of  Electronic Records Archives Program Management to determine if NARA's  management of the program is sufficient to ensure that the ERA is completed  on-time, within the approved funding, and will meet user requirements
an audit of NARA's Development of the Holdings Management System (HMS)to  determine whether NARA has adequately managed the proposal and development of  HMS in accordance with Federal and agency requirements
an audit of NARA's  Mail Management program to determine whether controls are adequate and whether NARA is in compliance with  Federal mail management policy and procedures.
Audit  Summaries
Review of Selected Security Aspects of NARA's Computer Network Environment
This is the fourth and final  product resulting from our review of the Novell NetWare/GroupWise Upgrade  Project. The objective of the software  upgrade project review was to monitor government and contractor effort  associated with the Novell NetWare operating system and the GroupWise e-mail  software upgrade. Specifically, we  assessed whether the project was meeting cost and schedule requirements, and  management was taking timely action to correct any actual or potential problems  with project performance. This report  addresses several security-related issues we identified during review of the  Novell Software Upgrade Project that adversely impact the security of the NARA computer network and  the information contained within that network.
To accomplish our objectives, we  determined if (a) unidentified devices  were connected to NARA's computer network by analyzing information and  documentation provided by Information Technology Services (NHT) officials  pertaining to the inventory of NARA computer network devices at NARA  facilities; and by performing our own survey identifying the location and  quantity of any unauthorized hubs and/or switches, and any other unauthorized  devices, connected to the computer network; (b) network printers were properly  configured by reviewing any documented network printer configurations; scanning  the computer network using Peregrine Network Discovery (renamed HP OpenView  Network Discovery) software, and by running Nessus scans for the network  printers, to identify the services running on those machines and any security  vulnerabilities that existed;  (c) Novell  servers generated audit records, NH officials regularly reviewed/analyzed audit  records, audit reports were generated, a formal, documented, audit and  accountability policy and implementation procedures existed, and the  organization allocates sufficient audit record storage capacity and configures  auditing to prevent such capacity being exceeded; and (d) new users at the  Presidential libraries undergo background investigations and receive security-awareness  training before access to NARA's computer network is granted.
Our review found several  significant weaknesses that adversely impact NARA's IT security program. We believe the findings discussed in this  report further strengthen our position that the agency should continue to  report information security as a material weakness. We made four recommendations, each with  sub-recommendations, that, when implemented by management, will assist the  agency in correcting the reported deficiencies and in improving computer  network security. (Audit Report # 07-10,  dated July 02, 2007).
Audit of NARA's Energy Usage
The OIG evaluated NARA's energy management practices affecting  the efficient use of energy resources to  (1) determine whether NARA could take additional measures to reduce  rising energy costs and (2) assess NARA's energy management efforts. Additionally, we reviewed NARA's compliance with National Energy Conservation  Policy Act (NECPA), as amended by Energy Policy Act (EPACT) 1992 and 2005 and  Executive Order 13123.
We found that NARA's Energy Management team has a positive  and passionate attitude toward their responsibilities for energy management and  has initiated and completed numerous efforts to reduce its energy and water  consumption, thereby, mitigating the rising cost of energy. These recently completed efforts include  capital improvements such as energy efficiency lighting, room occupancy  sensors, and water efficient fixtures.  Other energy conservation measures completed include the daily review of  the maintenance contractor's operation of the building and revision to air  handler run times, which has had a significant impact on energy reduction. Examples of efficiency measures planned  include a replacement of constant-volume air boxes to variable-volume boxes and  installation of a cooling tower well that is estimated to reduce water  consumption by one third.
NARA,  although exempt from the required energy reduction goals established by NECPA,  EPACT 1992 and Executive Order 13123, has generally complied with all reporting  requirements. Currently, NARA has requested  exemption from energy reduction goals established by EPACT 2005. However, we found that NARA has reduced energy consumption (on a BTU by gross square footage basis) by 12 percent compared to Fiscal Year 2003 (the  established base year), surpassing the required 2 percent reduction goal. Finally, in Fiscal Year 2005, the Office of  Management and Budget recognized NARA's  energy management practices by awarding the agency a Green Star Rating for its  ability to complete planned energy reduction projects.
Our audit revealed that  additional opportunities exist to realize additional energy efficiencies by  updating NARA's last reported comprehensive 1996 Energy Plan and making the  plan available to Energy Management team members, revitalizing the Employee  Energy Awareness Campaign, establishing procedures that ensure adequate  documentation of energy projects, and evaluating the potential benefit of a  full-time Energy Manager position.
We made four recommendations  designed to help NARA  further reduce energy consumption and realize associated cost benefits.  Management agreed with all the recommendations and initiated corrective  action. (Audit Report #07-08, dated June 8, 2007.)
Top of Page
Investigations
Investigations Overview
During this reporting period, the  Office of Investigations (OI) opened 10 investigations, closed 19  investigations, executed 2 arrest warrants, seized 2 vehicles, and recovered 3  records. The OI also received 81  complaints and closed 45 complaints.  Additionally, the OI conducted joint investigations with the Department  of Transportation OIG and the FBI. At  the close of the period, there remained 25 open complaints and 34 open  investigations.
Updates on Previously Reported Investigations
Theft  and Recovery of Civil War Records
A NARA intern  who plead guilty to felony theft for stealing Civil War records from NARA's Philadelphia  regional archives, was sentenced to 15 months in jail in the Eastern District  of Pennsylvania.
Mishandling and Theft of Classified Documents
In 2005, former National Security  Advisor Samuel R. Berger plead guilty to one count of 18 U.S.C. § 1924:  Unauthorized Removal and Retention of Classified Material, a Class A  Misdemeanor, and was subsequently sentenced to 2 years' probation, 100 hours  community service, a $50,000 fine, and no access to classified information for  a period of 3 years. During this  reporting period, The District of Columbia Court of Appeals issued an order  disbarring Berger from the bar of the District    of Columbia.
Alleged Wire Fraud, Theft of Public  Money, Money Laundering
A former NARA employee and a former NARA contractor who are alleged to have stolen nearly $1  million from NARA  were indicted by a Federal grand jury in the District of Maryland. Arrest warrants were subsequently issued and  executed. Both subjects made their first  appearances in court, and NARA OIG seized two vehicles belonging to the former  contractor.
Alleged Theft of Military Service  Records
An active duty sergeant in the  U.S. Army was found to have removed multiple Official Military Personnel  Folders from the National Personnel Records  Center in St. Louis, MO. Upon recovery of the records, the OIG  referred the case to the service member's command. The service member has transferred out of St. Louis. The case is under review by the U.S. Army  Office of the Judge Advocate General.
New Investigation Highlights
Violation  of NARA  Security Policy
Several researchers were provided with  special access to  classified information to be reviewed in a NARA Classified Research Room, which  is also a Sensitive Compartmented Information Facility or SCIF. While reviewing this information, multiple  external contacts were allowed to be made from within the SCIF via the use of  cell phones by the researchers in violation of NARA security policies.
Improper  Access to Classified Material
A former NARA  employee, now a volunteer and contractor, was provided inappropriate access to  classified information, during which he improperly removed copies of classified  information in violation of NARA's  classified information  security policy. This  investigation revealed that the individual was reviewing classified material in  an attempt to secure business for his employer.  While the individual possessed a security clearance, he did not have a  need to know the information he accessed.  This access violated NARA's  policies and procedures governing classified information.
Destruction  of Government Property
A NARA  employee, frustrated with a delay entering NARA's  remote parking facility, exited his vehicle and proceeded to break the bollard gate arm barring access to NARA's  annex parking lot. The misconduct was captured by NARA security cameras. The employee's parking privileges were  suspended for 10 working days, and he was directed to pay for the damages.
Suitability
A NARA  contractor was removed from a contract for providing false information on his  Declaration for Federal Employment. The  individual was under criminal investigation at his previous agency, and his  misconduct there had been substantiated.  The contractor subsequently lied to NARA OIG regarding his prior  misconduct and was removed from the contract.
Time and Attendance Fraud
A NARA  employee had been fraudulently reporting his arrival times to work for at least  six months. When confronted by  investigators, he lied about his actions.  The employee was suspended for two weeks and subsequently terminated  when he continued to have time and attendance issues.
Top of Page
Other Office of Investigation Activity
Archival  Recovery Team (ART)
During this period, the Archival Recovery  Team was staffed with a supervisory special agent and an investigative  archivist. The team fielded 40  complaints, and 24 complaints and 4 ongoing investigations were closed. In addition, 17 ART non-criminal cases were  referred to NARA  for a recovery determination. At the  close of the period, 15 ART complaints and 12 ART investigations remained open.
As part of the ART's outreach program, Office  of Investigations staff attended the following shows to educate the public  about the NARA OIG and ART:
The Northern Virginia Relic Hunters       Collector Show in Chantilly,        Virginia, April 14-15.
The 30th Annual Ohio       Civil War Collectors Show and 15th Annual Artillery Show at the Richland County       Fairgrounds in Mansfield,        Ohio, May 5-6.
The Gettysburg       Civil War Collectors Show in Gettysburg,        Pennsylvania, June 22-24.
The Richmond       Civil War Show in Mechanicsburg,        Virginia, August 18.
Computer  Crimes Unit
Recognizing the importance of finding and analyzing valuable evidence  located on the computers and networks of the subjects of our investigations,  the Office of Investigations continues to invest resources in the development  of our computer forensics lab. During  this period, we obtained and configured a computer workstation dedicated to  forensic analysis. In particular, we  have incorporated specialized software designed for forensic web browser and  internet analysis. In addition to developing  the lab, we also sent staff to the Digital Evidence Acquisition Specialist  Training Program (DEASTP) at the Federal Law Enforcement Training Center  (FLETC).
Internal Staffing Activity
The Office of Investigations welcomed an Investigative  Archivist to the staff, permanently assigned from a prior detail to OIG. We also elevated a Special Agent to lead the  Archival Recovery Team (ART) and hired a permanent Assistant Inspector General  for Investigations (AIGI).
OIG Hotline
The OIG Hotline provides a confidential channel  for reporting fraud, waste, abuse, and mismanagement to the OIG. In addition to receiving telephone calls at a  toll-free Hotline number and letters to the Hotline post office box, we also accept e-mail  communication from NARA's internal network or the Internet  through the Hotline e-mail system. Walk-ins are always welcome. Visit http://www.archives.gov/oig/ for more  information, or contact us:
By telephone
Washington,  DC, Metro area: (301) 837-3500
Toll-free and outside the Washington,   DC, Metro area: (800) 786-2551
By mail
NARA OIG Hotline
P.O. Box 1821
Hyattsville, MD   20788-0821
By e-mail oig .hotline@nara.gov
The Office of  Investigations promptly and carefully  reviews calls, letters, and e-mail to the Hotline. We investigate allegations  of suspected criminal activity or civil fraud and conduct preliminary inquiries  on non criminal matters to determine the proper disposition. Where appropriate,  referrals are made to the OIG audit staff, NARA management, or external authorities.
Hotline contacts are captured as complaints in  the Office of Investigations. The following  table summarizes Hotline activity for this reporting period:
STATISTICAL SUMMARY OF INVESTIGATIONS
Investigative Workload
Complaints    received/opened
81
Complaints closed    pending response from NARA
2
Complaints closed final
43
Complaints open to Investigations
8
Top of Page
Top Ten Management Challenges
Management Challenges Overview
Under the authority of the  Inspector General Act, the NARA OIG conducts and supervises independent audits,  investigations, and other reviews to promote economy, efficiency, and  effectiveness and to prevent and detect fraud, waste, and mismanagement. To fulfill that mission and help NARA achieve its strategic  goals, we have aligned our programs to focus on areas that we believe represent  the agency's most significant challenges.  We have identified those areas as NARA's  top ten management challenges. These  challenges are listed below.
1. Electronic Records Archives (ERA)
NARA's main challenge is to build a system  that will accommodate past, present, and future formats of electronic records. The  ERA Program did not meet its September goal of producing an initial operating  capability for ERA with planned incremental improvements that will eventually  result in full system capability.  Instead, the ERA program has experienced delivery delays, cost overruns,  and staffing problems. The success of  this mission-critical program is uncertain.  The challenge will be to deliver and maintain a functional ERA system  that will preserve electronic records for as long as needed.
2. Electronic Records Management (ERM)
NARA directs the Electronic Records Management  (ERM) initiative, one of 24 Government-wide initiatives. The ERM initiative  will provide guidance to agencies in managing and transferring to NARA, in an increasing  variety of data types and formats, their permanent electronic records. NARA  and its Government partners are challenged with determining how to manage  electronic records, and how to make ERM and e-Government work more effectively.
3. Improving Records Management
Part of NARA's mission is to ensure that Federal  officials and the American public have access to essential evidence as soon as  legally possible. NARA must work with Federal agencies to make  scheduling, appraisal, and accessioning processes more effective and timely.  The challenge is how best to accomplish this component of our overall mission  and identify and react to agencies with critical records management needs.
4. Information  Technology Security
Information technology continues  to present major challenges for NARA. The authenticity and reliability of our  electronic records and information technology systems are only as good as our  IT security infrastructure. Each year, the risks and challenges to IT security  continue to evolve. NARA  must ensure the security of its data and systems or risk undermining the  agency's credibility and ability to carry out its mission.
5. Expanding Public Access to Records
In a democracy, the records of  its archives belong to its citizens. NARA's  challenge is to more aggressively inform and educate our customers about the  services we offer and the essential evidence to which we can provide access. Of critical importance is NARA's  role in ensuring the timeliness and integrity of the process of declassifying  classified material held at NARA.
6. Meeting Storage Needs of Growing  Quantities of Records
NARA-promulgated regulation 36 CFR  Part 1228, “Disposition of Federal Records,” Subpart K, “Facility Standards for  Records Storage Facilities,” requires all facilities that house Federal records  to meet defined physical and environmental requirements by FY 2009. NARA's  challenge is to ensure compliance with these regulations internally as well as  by other agencies that house Federal records.
7. Preservation Needs of Records
The Archivist identified  preservation as a material weakness under the Federal Managers' Financial Integrity  Act (FMFIA) reporting process. NARA cannot provide public  access to records to support researchers' needs unless it can preserve them for  as long as needed. As in the case of our  national infrastructure (bridges, sewer systems, etc.), NARA holdings grow older daily and are  degrading. NARA is challenged to address this condition  and related challenges.
8. Improving Project  Management
Effective project management is  essential to obtaining the right equipment and systems to accomplish NARA's mission. Complex and high-dollar contracts require  multiple program managers, often with varying types of expertise. NARA  is challenged with planning projects, developing adequately defined  requirements, analysis and testing to support acquisition and deployment of the  systems, and oversight to ensure effective and efficient results within  costs. These projects must be managed  and tracked to ensure that cost, schedule, and performance goals are met.
9. Physical and Holdings Security
The Archivist has identified security  of collections as a material weakness under the FMFIA reporting process. NARA  must maintain adequate levels of security to ensure the safety and integrity of  persons and holdings within our facilities. This is especially critical in  light of the new realities that face this nation, post–September 11, and the  risks that our holdings may be pilfered, defaced, or destroyed by fire or other  natural disasters.
10.   Strengthening Human Capital
The GAO has identified human  capital as a Government-wide high risk. NARA's challenge is to adequately assess its human capital  needs in order to effectively recruit, retain, and train people with the  technological understanding and content knowledge that NARA needs for future success.
Top of Page
Reporting Requirements
Statistical Summary of  Investigations
Investigative Workload
Complaints    received this reporting period
81
Investigations pending at beginning    of reporting period
42
Investigations opened this    reporting period
10
Investigations closed this    reporting period
18
Investigations carried forward this    reporting period
34
Categories of Closed Investigations
Fraud
4
Conflict of Interest
0
Contracting Irregularities
0
Misconduct
6
Larceny (theft)
4
Other
4
Investigative Results
Cases referred – accepted for    prosecution
0
Cases referred – declined for    prosecution
5
Cases referred – pending    prosecutive decision
0
Arrest
2
Indictments and informations
2
Convictions
2
Fines, restitutions, judgments, and    other civil and administrative recoveries
1
NARA holdings recovered
3
Administrative Remedies
Employee(s) terminated
1
Employee(s) resigned in lieu of    termination
0
Employee(s) suspended
2
Employee(s) given letter of    reprimand or warnings/counseled
2
Employee(s) taking a reduction in    grade in lieu of administrative action
0
Contractor (s) removed
1
Top of Page
Summary of  Prosecutorial Referrals
Requirement 5(a)4
Accepted for Prosecution
Theft and Recovery of Civil War Records
A NARA intern  who plead guilty to felony theft for stealing Civil War records from NARA's Philadelphia  regional archives, was sentenced to 15 months in jail in the Eastern District  of Pennsylvania.
Alleged Wire Fraud, Theft of  Public Money, Money Laundering
A former NARA employee and a former NARA contractor who are alleged to have stolen nearly $1  million from NARA  were indicted by a Federal grand jury in the District of Maryland. Arrest warrants were subsequently issued and  executed. Both subjects were arraigned,  and NARA OIG seized two vehicles belonging to the former contractor.
Communicating Threats
A former NARA  employee who was terminated for misconduct filed a civil action against NARA. Immediately prior to the civil trial, the  former employee threatened NARA  employees who were scheduled as witnesses and the Federal District Court judge hearing the  case. The former employee was indicted  and arrested. He subsequently plead  guilty to 14 counts of threatening to assault and murder an official of the  United States Government and 5 counts of obstruction of justice. He was sentenced to 36 months imprisonment, followed by 3 years of  supervised release.
Declined for Prosecution
Fraudulent Request for Veterans Records
An individual's ex-husband  had been requesting her military records through NARA's Vetrecs online system using her  personal identifiers. An Assistant United  States Attorney (AUSA) declined prosecution.
Fraudulent Request for Veterans Records
A veteran's sister-in-law  and her husband forged signatures on forms used to request his military  records. An AUSA declined prosecution.
Unauthorized Disclosure and Possession of Tax Records
Three NARA employees wrongfully inspected tax  return information for a variety of celebrities and one well-known corporation  and passed said information to fellow employees and others. An AUSA declined prosecution.
Unauthorized Possession of Classified Material
A former Presidential  administration official was in possession of classified material that should  have should have remained in government possession when the official left the  administration. An AUSA declined  prosecution.
Privacy Act Violation
A former NARA  employee was in possession of Personally Identifiable Information of Government  officials from her work at NARA  on a non-Government computer that was exposed to the public. An AUSA declined prosecution.
Unlawful Removal of Military  Records
A NARA employee  unlawfully accessed and removed certain military personnel records from the National Personnel Records   Center. The employee was terminated. An AUSA declined prosecution.
Destruction of Government Property
A NARA  employee, frustrated with a delay entering NARA's  remote parking facility, exited his vehicle and proceeded to break the bollard gate arm barring access to NARA's  annex parking lot. The misconduct was captured by NARA security cameras. The employee's parking privileges were  suspended for 10 working days, and he was directed to pay for the damages. An AUSA declined prosecution.
Pending Prosecutorial Determination
Alleged Theft of Military  Service Records
An active duty sergeant in the  U.S. Army was found to have removed multiple Official Military Personnel  Folders from the National Personnel Records  Center in St. Louis, MO. Upon recovery of the records, the OIG  referred the case to the service member's command. The service member's has transferred out of St. Louis. The U.S. Army Office of the Judge Advocate  General is reviewing the case.
Suitability
A NARA  contractor was removed from a contract for providing false information on his  Declaration for Federal Employment. The  individual was under criminal investigation at his previous agency, and his  misconduct there had been substantiated.  The contractor subsequently lied to NARA OIG regarding his prior  misconduct and was removed from the contract.
Communicating Threats
A NARA  employee had been terminated and subsequently began making threatening telephone  calls to his former supervisor. The  local district attorney's office is reviewing the case for a prosecutive  determination.
Fraudulent Request for Veterans  Records
The subject forged signatures of military veterans on release forms  presented to the National   Personnel Records   Center to fraudulently  acquire a veterans' service records.
Wrongful Possession of  Classified Material
Classified records from a former Presidential administration that belong  to NARA are in  the wrongful possession of an individual who refuses to turn the records  over.
Top of Page
List of Reports Issued
Requirement 5(a)(6)
Report No.
Title
Date
Questioned Costs
Unsupported Costs
Funds Put to Better    Use
07-08
Audit    of NARA's    Energy Usage
06/08/2007
0
0
$675,000
07-10
Review    of Selected Security Aspects of NARA's Computer Network Environment
07/02/2007
0
0
0
Audit Reports with Questioned Costs
Requirement 5(a)(8)
Category
Number of
Reports
DOLLAR VALUE
Questioned
Costs
Unsupported
Costs
A. For which no management decision has been    made by the commencement of the reporting period
0
$0
$0
B. Which were issued during the reporting    period
0
$0
$0
Subtotals (A + B)
0
$0
$0
C. For which a management decision has been made    during the reporting period
0
$0
$0
(i) dollar value of disallowed cost
0
$0
$0
(ii) dollar value of costs not disallowed
0
$0
$0
D. For which no management decision has been    made by the end of the reporting period
0
$0
$0
E. For which no management decision was made    within 6 months
0
$0
$0
Audit Reports with Recommendations That
Funds Be Put to Better Use
Requirement 5(a)(9)
CATEGORY
NUMBER
DOLLAR VALUE
A. For which no management decision has been    made by the commencement of the reporting period
0
0
B. Which were issued during the reporting    period
1
$675,000
Subtotals (A + B)
0
$675,000
C. For which a management decision has been    made during the reporting period
0
0
(i) dollar value of recommendations
that were agreed to by management
0
0
Based on    proposed management
action
0
0
Based on    proposed legislative
action
0
0
(ii) dollar value of recommendations
that were not agreed to by
management
0
0
D. For which no management decision has
been made by the end of the reporting
period
0
$675,000
E. For which no management decision was made within 6 months of    issuance
0
0
Other Required Reports
REQUIREMENT
CATEGORY
SUMMARY
5(a)(3)
Prior significant recommendations    unimplemented
None
5(a)(5)
Information or assistance refused
None
5(a)(10)
Prior audit reports unresolved
None
5(a)(11)
Significant revised management    decisions
None
5(a)(12)
Significant    revised management decisions with which the OIG disagreed
None
Top of Page
PDF files require the free Adobe Reader.
More information on Adobe Acrobat PDF files is available on our Accessibility page.
Office of the Inspector General (OIG) >
Connect With Us
Blogs
Facebook
Flickr
RSS Feeds
Twitter
YouTube
More...
Information For…
Citizen Archivists
Federal Employees
Genealogists
Members of Congress
Preservation
Records Managers
The Press
Publications
Federal Register
Free Publications
Prologue Magazine
Purchase Publications
More…
Orgs & Offices
Center for Legislative Archives
Federal Records Center
Office of the Inspector General
Presidential Libraries
More…
About Us
What is the National Archives?
Doing Business with Us
Plans and Reports
Open Government
Our Plain Language Activities
I  Want To...
Get My Military Record
Plan a Research Visit
Visit the Museum
View Online Exhibits
Apply for a Grant
Participate
Attend an Event
Donate to the Archives
Work at the Archives
Volunteer at the Archives
Resources
A-Z Index
America's Founding Docs
Contact Us
En Español
FAQs
Forms
Contact Us
Accessibility
Privacy Policy
Freedom of Information Act
No FEAR Act
USA.gov
The U.S. National Archives and Records Administration
1-86-NARA-NARA or 1-866-272-6272
.